        EVALUATION OF THE
SMALL AND DISADVANTAGED BUSINESS
       UTILIZATION PROGRAM
           FYs 1999 – 2002




UNITED STATES DEPARTMENT OF LABOR
OFFICE OF SMALL BUSINESS PROGRAMS




              REPORT NUMBER:        21-04-004-01-100
                       DATE:        April 29, 2004
                             TABLE OF CONTENTS.

ABBREVIATIONS AND ACRONYMS……………………….…….…………………...……………………………………………………….…….ii

EXECUTIVE SUMMARY………………………………………………….…………………………………………………………………………………………iii

BACKGROUND………………………………………………………………….…..………………………………………………...……………………...…..……………….1

OBJECTIVE, SCOPE, AND METHODOLOGY…………………………………………………………………………………………….3

FINDINGS AND RECOMMENDATIONS……………….…..…………….…………………………...……………………...…..……………….4

              Finding A    Goal Setting Strategy Impedes the Department’s
                           Maximization of Small Business Purchases……………….…………..………….....…….5

              Finding B    Communication and Outreach Efforts Need
                           Strengthening..…………………………………………………………………………………………...………………8

              Finding C    Internal and External Conditions Hinder
                           Maximization of Small Business Procurement………..…...……..…….…………….13

APPENDICES

              Appendix 1   Small Business Size Standards…………………………………………………………….…………17

              Appendix 2   Eligibility Requirements of Small Business Programs………………...…….19

              Appendix 3   OSBP’s Authority………………………………..…………………………………………………………….…..24

              Appendix 4   DOL Performance Tables, FYs 1999-2002……………………………………..……….26

              Appendix 5   Vendor Outreach Sessions – Supplemental Information ………...……...…30

              Appendix 6   Comparison Tables     ………………………………………………………………………………...……………    32

GLOSSARY ……………………………………………………………………………………………………………………………………………………………………….…..35

AGENCY RESPONSE……………………………………………………………………..…………………………………………….………………………………..38




OSBP Evaluation                              i                               Table of Contents
                      ABBREVIATIONS AND ACRONYMS.

DOL           Department of Labor
FAR           Federal Acquisition Regulations
FASA          Federal Acquisition Streamlining Act
GDP           Gross Domestic Product
GSA           General Services Administration
HUBZone       Historically Underutilized Small Business Zone
OSBP          Office of Small Business Programs
SDBU          Small and Disadvantaged Business Utilization
SBA           Small Business Administration
SDB           Small Disadvantaged Business
SDVO          Service-Disabled Veteran-Owned
VESBA         Veterans Entrepreneurship and Small Business Development Act

DOL Agencies

BLS           Bureau of Labor Statistics
EBSA          Employee Benefits Security Administration (formerly PWBA)
ESA           Employment Standards Administration
ETA           Employment and Training Administration
ILAB          Bureau of International Labor Affairs
MSHA          Mine Safety and Health Administration
OALJ          Office of Administrative Law Judges
OASP          Office of the Assistant Secretary for Policy
OASAM         Office of the Assistant Secretary for Administration and Management
OCFO          Office of the Chief Financial Officer
ODEP          Office of Disability Employment Policy
OIG           Office of Inspector General
OPA           Office of Public Affairs
OSHA          Occupational Safety and Health Administration
SOL           Office of the Solicitor
VETS          Veterans’ Employment and Training Service
WB            Women’s Bureau




OSBP Evaluation                              ii                      Abbreviations & Acronyms
                                EXECUTIVE SUMMARY.

The Department of Labor Can Stimulate Small Business Growth and Decrease its
Procurement Expenditures by Maximizing Small Business Purchases

The Small Business Act requires that a minimum amount of Federal procurement purchases
come from small businesses annually. In addition, statutory requirements define minimum levels
for procurements from specific types of small businesses, such as those owned by women or
service disabled veterans. These goals can vary among agencies, but all Federal agencies with
procurement power must have goals assigned to them for each small business category. In 1997,
the overall Federal small business procurement goal was set at 23 percent. Although DOL’s goal
has changed at times, from FYs 2000 to 2002 its overall small business procurement goal was 24
percent. DOL exceeded its goal each year.

The Office of Small Business Programs (OSBP) is the primary catalyst for achievement of small
business goals at DOL through implementation of the Department’s small and disadvantaged
business utilization function. This evaluation was conducted to 1) review the Department’s
historical achievement of small business procurement goals, 2) analyze the performance of
OSBP in executing the small and disadvantaged business utilization function, and 3) assess the
conditions that affected the maximization of small business procurement for FYs 1999 to 2002.

Although the Department successfully achieved its overall goal for FYs 2000 to 2002, it has not
consistently met its sub-goals. In addition, 41 percent of DOL agencies did not achieve their
overall small business procurement goals in FY 2002. Because the quantity of vendors
competing for procurements in the DOL marketplace could adversely affect the price and quality
of goods and services purchased, potential impacts of expanding the competition for contracts
include decreased DOL procurement spending and increased quality of goods and services.

As a result of our review and analysis, we concluded that the achievement of DOL’s small
business procurement goals is primarily affected by goal setting, communication and outreach,
and internal and external conditions.

FINDING A
Goal Setting Strategy Impedes the Department’s Maximization of Small Business Purchases

OSBP negotiates individual small business procurement goals once per year with each DOL
agency. Generally, these goals are established based upon knowledge of an agency’s market and
business model. However, the result is often goals that are set at levels known to be attainable,
rather than levels that are potentially attainable. This practice is most apparent when an agency’s
goal is set at a lower percentage than even the Department’s overall goal for a given year and is
particularly evident when considering the goal setting strategy for the Employment and Training
Administration (ETA). As a result, goals have not been set high enough to encourage agencies
to perform above expectations and thereby maximize small business purchases.




OSBP Evaluation                                 iii                             Executive Summary
We recommend the OSBP Director:

   1. Evaluate OSBP’s goal setting strategy and the effectiveness of setting some small
      business goals below DOL’s required percentages.

   2. Based on the evaluation result, revise the goal setting strategy as necessary to maximize
      small business procurement.


FINDING B
Communication and Outreach Efforts Need Strengthening

The OSBP, small business specialists, and small business vendors have indicated that
communication and outreach are vital factors that impact the achievement of DOL small
business procurement goals. Of particular importance in the small business procurement process
are vendor outreach sessions, internal communication, and the General Services Administration
(GSA) Federal Supply Schedule.

According to participants, vendor outreach sessions are usually very useful. However, based on
interviews and written feedback from vendor outreach session participants, we found that 1)
participant knowledge of contracts, vendors, and DOL agencies is often inadequate to ensure that
agency needs are matched with appropriate vendors, and 2) operation and organization of the
sessions need improvement.

In addition, agency small business specialists commented that they could benefit significantly
from increased assistance from OSBP in finding certain types of small businesses and from a
greater presence of small business vendors on the GSA Federal Supply Schedule.

We recommend the OSBP Director:

       3. Modify OSBP’s process for notification of agency representatives attending
          vendor outreach sessions by developing procedures to ensure appropriate
          agency procurement specialists attend the sessions and are matched with
          suitable vendors.

       4. Introduce controls at vendor outreach sessions to ensure participants adhere
          to procedures.

       5. Upgrade the internet-based form for vendor outreach session registration.

       6. Revise the DOL procurement forecast by differentiating upcoming contracts
          that are open for competition from those that are not open for competition.

       7. Develop strategies to improve communication and information exchange
          between OSBP, Small Business Specialists, and vendors.




OSBP Evaluation                                iv                              Executive Summary
       8. Encourage GSA representatives to participate in vendor outreach sessions in
          order to disseminate information to participants regarding the GSA Federal
          Supply Schedule.


FINDING C
Internal and External Conditions Hinder Maximization of Small Business Procurement

During our evaluation, internal organizational issues were identified which diminish OSBP’s
capability to positively influence DOL’s small business procurement process. These conditions
include a lack of enforcement power, competing priorities, and limited resources. As long as
OSBP continues to operate in the presence of these organizational limitations, it will not be able
to provide optimal levels of leadership for DOL’s small business procurement efforts.

The achievement of small business procurement goals is also inhibited by external conditions
that are not under direct control of OSBP or small business specialists. These include:

       •   Growth beyond small business size limits,
       •   HUBZone requirements
       •   Low number SDVO small businesses,
       •   Exclusion of subcontractors in small business statistics, and
       •   Increases in small business procurement dollars that do not necessarily
           result in increases in the small business procurement percentage.

We recommend the OSBP Director:

       9. Analyze the processes and techniques utilized by other Federal agencies to
          maximize small business procurement. Determine if these processes and
          techniques could be utilized by OSBP.

       10. Develop strategies to compensate for the effects of external conditions upon
           the maximization of small business procurement.


AGENCY RESPONSE AND OIG CONCLUSION

In response to OIG’s official draft report, OSBP agreed with our findings. As a result of
corrective actions planned or already taken by OSBP, we consider all 10 recommendations to
be resolved. The recommendations will be closed pending OIG’s receipt of appropriate
documentation of corrective actions as specified in the report. We have incorporated excerpts
from OSBP’s response in the Findings and Recommendations section of this report. OSBP’s
complete response is included as an Appendix to the report.




OSBP Evaluation                                  v                               Executive Summary
                                      BACKGROUND.

In 1953, Congress passed the Small Business Act and created the Small Business
Administration. A function of the Small Business Administration (SBA) is to protect the
interests of small businesses and to help ensure that a “fair proportion” of total government
purchases are made from small business enterprises.

The Small Business Act defines a small business as “one that is independently owned and
operated and which is not dominant in its field of operation.” For Federal procurement purposes,
the SBA defines small businesses based upon number of employees, annual revenues, affiliates,
or other relevant factors. It has established two widely used standards – 500 employees for most
manufacturing and mining industries, and $6 million in average annual receipts for most non-
manufacturing industries. However, specific small business criteria generally vary by industry as
defined by the North American Industry Classification System (NAICS). (See Appendix 1 on
page 14 for Small Business Size Standards.)

All Federal agencies use the SBA’s size standards to determine the eligibility of firms that
compete for Federal Government contracts specifically designated for small businesses,
including small businesses owned and controlled by service disabled veterans, qualified small
businesses located within HUBZones, small businesses owned by socially or economically
disadvantaged individuals, and small businesses owned by women (see Appendix 2 on page 16
for descriptions of Small Business Programs).

The Small Business Act requires that a minimum amount of Federal prime contract awards come
from small businesses annually. In addition, statutory requirements define minimum levels for
procurements from specific types of small businesses, such as those owned by women or service
disabled veterans (see Appendix 2 on page 16 for relevant regulations). These goals can vary
among agencies, but all Federal agencies with procurement power must have goals assigned to
them for each small business category. Since 1997, the overall small business procurement goal
for the Federal Government has been 23 percent. Although DOL’s goal has changed at times,
for FYs 2000 through 2002 its overall small business procurement goal remained 24 percent.
DOL exceeded its goal each year (see Table 1 on page 4 for goals and results from FYs 1999-
2002).

The Small Business Act also requires that all Federal agencies with procurement power establish
an Office of Small and Disadvantaged Business Utilization. These offices are responsible for
promoting procurement from small businesses in compliance with Federal laws, regulations, and
policies (see Appendix 3 on page 21 for OSBP’s Authority). Within DOL, the Office of Small
Business Programs (OSBP) carries out the small and disadvantaged business utilization function.
This involves: ensuring procurement opportunities for small, small disadvantaged, women-
owned, HUBZone, and service-disabled veteran owned small businesses; serving as DOL’s
central referral point for small business regulatory compliance information and questions; and,
negotiating each DOL agency’s small business procurement goals. In addition, OSBP is also
responsible for managing the Department’s minority colleges and universities program.




OSBP Evaluation                                  1                                      Background
Essentially, OSBP acts as a liaison between the small business community and DOL’s small
business specialists. It is the central contact point for small businesses seeking information and
compliance assistance on DOL’s programs. OSBP’s outreach efforts include hosting DOL-
sponsored vendor outreach sessions, attending non-DOL sponsored procurement conferences and
conventions, providing small business procurement information on its internet website, and
developing annual procurement forecasts.

In addition to its outreach duties, OSBP periodically facilitates and monitors each DOL agency’s
progress in meeting small business procurement goals. Cooperation between OSBP and small
business specialists is necessary to ensure that DOL maximizes small business procurement.

The Federal Government totaled $235 billion in procurement purchases in FY 2002. Of this
amount, 22.6 percent was from small businesses. DOL spent approximately $1.64 billion on
procurement purchases in FY 2002, amounting to 0.70 percent of all Federal procurement
expenditures. Of these purchases, 26.8 percent were made from small businesses (see Table 1 on
page 4).




OSBP Evaluation                                 2                                     Background
                  OBJECTIVE, SCOPE, AND METHODOLOGY.


OBJECTIVE               This evaluation was conducted in order to review the Department’s
                        achievement of small business procurement goals, analyze the
                        performance of OSBP in executing the small and disadvantaged
                        business utilization function, and assess the conditions that
                        affected the maximization of small business procurement for FYs
                        1999 to 2002.


SCOPE                   We conducted an analysis of OSBP’s operating activities and
                        strategies for meeting DOL’s small business procurement goals
                        from FYs 1999 to 2002. This included a review of some of the
                        agencies with the highest procurement expenditures in the
                        Department – the Employment and Training Administration
                        (ETA), the Occupational Safety and Health Administration
                        (OSHA), and the Bureau of Labor Statistics (BLS).


METHODOLOGY             This evaluation covered the period FYs 1999-2002 and was
                        conducted in accordance with the Quality Standards for
                        Inspections published by the President’s Council on Integrity and
                        Efficiency. As part of this evaluation, we interviewed OSBP
                        officials and the small business specialists within ETA, OSHA,
                        and BLS (chosen based upon procurement expenditures); reviewed
                        vendor outreach session surveys and small business procurement
                        documents; analyzed small business procurement data acquired
                        from GSA’s Federal Procurement Data System and OSBP to
                        characterize the performance of DOL and its agencies in meeting
                        small business procurement goals; and, reviewed the
                        quantity/availability of different types of small businesses.




OSBP Evaluation                          3                Objective, Scope, and Methodology
                           FINDINGS AND RECOMMENDATIONS.

The Department exceeded its overall small business goal of 24 percent for FYs 2000 through
2002 (see Table 1 below). However, DOL has not consistently met its sub-goals as certain goals
have been met in some years and not met in others. DOL has never achieved its HUBZone or
SDVO goals. In addition, 41 percent (7 out of 17) of DOL agencies did not achieve their overall
small business procurement goals in FY 2002 (see Appendix 4 on page 23 for each agency’s
performance).

       Table 1

          Small Business Utilization                       1999            2000          2001           2002
          DOL Total Procurement Dollars                 1.14 Billion    1.33 Billion   1.40 Billion   1.64 Billion
                                                              %              %             %              %
          DOL Small Business Goal                          25.7             24.0          24.0           24.0
          DOL Small Business Actual                        19.5             26.1          27.8           26.8
          Federal Small Business Goal                      23.0            23.0          23.0           23.0
          DOL 8(a) Goal                                     3.8             4.9           4.9            3.0
          DOL 8(a) Actual                                   4.7             5.1           5.5            5.8
          Federal 8(a) Goal                                  *               *              *             *
          DOL Small Disadvantaged Goal                      5.0             3.0           3.0            4.9
          DOL Small Disadvantaged Actual                    2.5             3.7           7.3            6.4
          Federal Small Disadvantaged Goal                  5.0             5.0           5.0            5.0
          DOL Women-Owned Goal                              5.5             5.2           5.4            5.2
          DOL Women-Owned Actual                            3.1             4.1           5.3            5.1
          Federal Women-Owned Goal                          5.0             5.0           5.0            5.0
          DOL HUBZone Goal                                   *               *            2.0            2.5
          DOL HUBZone Actual                                 *               *            0.3            1.6
          Federal HUBZone Goal                               *               *            2.0            2.5
          DOL SDVO Goal                                      *               *             3.0           3.0
          DOL SDVO Actual                                    *               *             0.0           0.0
          Federal SDVO Goal                                  *               *             3.0           3.0
          DOL Total Small Business Contracts               5,788           6,964         8,321          6,817


       * = No Goal Required
       Note: HUBZone purchases increased approximately 5 times from 2001 to 2002


The quantity of vendors competing for procurements in the DOL marketplace could adversely
affect the price and quality of goods and services purchased by DOL. Therefore, potential
impacts of expanding the competition for contracts include decreased DOL procurement
spending and increased quality of goods and services purchased. In addition, when small
businesses are not considered for contracts, they are deprived of potential revenues that could
positively affect their dollar growth. For example, based upon FY 2002 data, if DOL could have
realized a 1 percent savings from increased competition, it could have reduced procurement costs
by $16.4 million. Furthermore, for every percentage point that DOL increased its small business
procurement expenditures, small businesses could have gained $16.4 million.


OSBP Evaluation                                           4                                Findings & Recommendations
As a result of our review and analysis, we concluded that the maximization of small business
procurement at DOL is primarily affected by OSBP’s goal setting strategy, communication and
outreach, and internal and external conditions.

FINDING A
Goal Setting Strategy Impedes the Department’s Maximization of Small Business Purchases

OSBP negotiates individual small business procurement goals once per year with each DOL
agency. Generally, these goals are established based upon knowledge of an agency’s market and
business model. However, the result is often goals that are set at levels known to be attainable,
rather than levels that are potentially attainable. This practice is most apparent when an agency’s
goal is set at a lower percentage than even the Department’s overall goal for a given year and is
particularly evident when considering the goal setting strategy for ETA. As a result, goals have
not been set high enough to encourage agencies to perform above expectations and thereby
maximize small business purchases.

Small Business Goal Setting for DOL

The SBA sets DOL’s small business procurement goals after analysis of its historical performance
over a period of years and after receiving recommendations from OSBP. From FYs 2000 through
2002, the Department’s goal was set at 24 percent. As previously stated, DOL accomplished its
goal all 3 years.

Within DOL, individual goals are negotiated by OSBP with each agency. Unlike the goal setting
process for Federal agencies, these goals are not set by the SBA, but are instead determined by
OSBP. The OSBP maintains that it is able to reasonably predict an agency’s small business
performance for an upcoming year by utilizing historical data and input from agency
procurement plans.

Goal Setting for ETA

ETA’s goals have been consistently set at levels below DOL’s requirements (see charts on the
following page). Generally, these goals have been set at likely attainable levels below the
departmental goals, while other agency’s goals have been set at levels high enough to
compensate. This is significant because historically ETA has accounted for approximately 75-80
percent of all DOL procurement spending. Therefore, if ETA does not meet its small business
goals, DOL encounters great difficulty meeting its departmental goals. Because of the
significance of ETA, it is counterproductive to set its goals below the overall DOL requirement.

OSBP justifies this variable goal setting strategy by referring to the utilization of a similar
strategy by the SBA when it sets Federal departmental goals. In FY 2002, for example, the small
business goal for the Department of Defense was 23 percent, while the Department of the
Interior’s goal was 58 percent. Like ETA, the Department of Defense struggles to achieve its
goal, but still aims for the Federal 23 percent goal instead of aiming under it.


OSBP Evaluation                              5                         Findings & Recommendations
                                                                                        Finding A
                               Overall Small Business Performance                                                      8(a) Performance

             26                                                                                           7
             24                                                                                           6
             22
Percentage




                                                                                                          5




                                                                                             Percentage
             20                                                           ETA Goal %                      4                                            ETA Goal %

             18                                                           ETA Actual %                                                                 ETA Actual %
                                                                                                          3
                                                                                                                                                       DOL Goal %
             16                                                           DOL Goal %                      2
             14                                                                                           1
             12                                                                                           0
                              1999        2000          2001     2002                                         1999       2000          2001   2002
                                                 Year                                                                           Year




                                                                                                              Women-Owned Small Business Performance
                              Small Disadvantaged Business Performance
                                                                                                          6
                          6

                          5
                                                                                                          5
                                                                                             Percentage
             Percentage




                          4                                                  ETA Goal %
                                                                                                                                                       ETA Goal %
                          3                                                  ETA Actual %                 4
                                                                                                                                                       ETA Actual %
                          2                                                  DOL Goal %                                                                DOL Goal %
                                                                                                          3
                          1

                          0                                                                               2
                               1999         2000          2001     2002
                                                                                                              1999       2000          2001   2002
                                                   Year
                                                                                                                                Year




             In initial discussions with ETA, representatives expressed concern regarding what they viewed
             as an already high goal and conveyed that it should be lowered, which would further ensure its
             achievement. Such statements indicated that ETA did not realize the significance of its role in
             DOL’s small business procurement process. However, upon follow-up discussions with ETA,
             the agency demonstrated that it was indeed aware of its importance and provided its goal setting
             rationale. ETA contends that the overall small business goal for FY 2002 was set at 21 percent
             for the following reasons:

                                      •      Congressional approval of Job Corps’ FY 2002 budget appropriation
                                             level was at the same level approved for FY 2001. Without an
                                             inflationary increase, this reduces the overall money available to fund
                                             new contract activities across the board, including the funding of new
                                             small business activities.
                                      •      During FY 2000, Job Corps piloted several strategies to develop the
                                             capability of small businesses to operate centers, including the award
                                             of three center operations contracts to small businesses through the Job
                                             Corps’ Mentor-Protégé model. The Mentor-Protégé model teams an
                                             experienced Job Corps contractor with a small business for 2 years in
             OSBP Evaluation                                                             6                                      Findings & Recommendations
                                                                                                                                                 Finding A
               order to provide center operations training. Performance evaluations
               indicate that only one of the three small business “protégés” performed
               satisfactorily. Consequently, only one of the three planned center
               operations contracts was transferred to a small business during 2002.
           •   The majority of contracts awarded at the ETA national office are
               already awarded to small businesses.



 RECOMMENDATION

 We recommend the OSBP Director:

     1. Evaluate OSBP’s goal setting strategy and the effectiveness of setting some small
        business goals below DOL’s required percentages as a means of maximizing small
        business procurement.

     2. Based on the evaluation result, revise the goal setting strategy as necessary to
        maximize small business procurement.




Recommendations 1 and 2

OSBP’s Response: “In the course of setting FY 2004 and FY 2005 small business goals for
DOL agencies, OSBP revised its goal setting strategy to maximize small business procurement
and strove to base goals more on potential attainability. As a result, several agencies’ goals
were increased (along with DOL’s) over FY 2002 and 2003 levels. Particularly notable is the
increase of ETA’s small business goal to 23 percent, the legislatively mandated government-wide
goal level (see attachment). Even though ETA’s goal falls below DOL’s required percentage,
OSBP believes that a 23 percent goal for ETA is currently realistically ambitious given its mix of
procurements as opposed to what other DOL agencies buy. OSBP will continue to set
realistically ambitious goals for DOL agencies which may include setting a goal for ETA which
equates to the Department’s goal at a future date.”

OIG’s Conclusion: After receipt and review of OSBP’s response with attached documentation
that shows an increase in ETA’s FYs 2004 and 2005 goals, we concur with OSBP’s corrective
actions and consider recommendations 1 and 2 resolved and closed.




OSBP Evaluation                              7                         Findings & Recommendations
                                                                                        Finding A
FINDING B
Communication and Outreach Efforts Need Strengthening

The Office of Small Business Programs, DOL small business specialists, and small business
vendors have indicated that communication and outreach are vital factors that impact the
achievement of DOL small business procurement goals. Of particular importance in the small
business procurement process are vendor outreach sessions, internal communication, and the
GSA Schedule. We found that current efforts by OSBP regarding these factors are valuable and
well intended, but inadequate to ensure that DOL agencies consistently maximize small business
purchases.

Vendor Outreach Sessions

According to OSBP, Small Business Vendor Outreach Programs (SBVOP) are considered a best
practice among Federal agencies for developing relationships with small businesses and fostering
compliance with the Small Business Act. The SBVOP provides the small business community
with an opportunity to market its capabilities directly to DOL, and encourages DOL agencies to
learn more about potential small business procurement opportunities. As a result, SBVOP has
the potential to provide DOL with vendor options that will stimulate small business growth, help
satisfy congressional small business procurement requirements, and create possible procurement
cost reductions because of increased competition.

A tool used by OSBP to facilitate information exchange between DOL agencies and potential
vendors is the vendor outreach session. The purpose of these sessions is to give small business
vendors a forum to present their products and services to interested DOL agencies and to give
agency procurement officers an opportunity to see what types of procurement solutions are
available. Contracts are not actually written or signed at vendor outreach sessions.

According to participants, vendor outreach sessions are usually very useful. However, based on
interviews and written feedback from participants, two areas of concern were identified:

           •   Participant knowledge of contracts, vendors, and DOL agencies is often
               inadequate to ensure that agency needs are matched with appropriate
               vendors, and
           •   Operation and organization of the sessions need improvement.

Participant Knowledge of Contracts, Vendors, and DOL Agencies

Interviews and written feedback from participants disclosed that meetings between small
business specialists and vendors during vendor outreach sessions were not as productive as
possible because of a general lack of knowledge of each other. Agency representatives stated
that they usually know very little about attending vendors prior to meeting them for the first time
at a vendor outreach session. Conversely, vendors are often uninformed regarding the mission
and activities of particular agencies within the Department. Vendor outreach session participants
suggested that meetings could be much more constructive if the program officials who are
actually seeking the contracts were present rather than the small business specialists alone.
OSBP Evaluation                              8                         Findings & Recommendations
                                                                                        Finding B
Program officials generally possess more detailed knowledge of their agency’s contract needs.
Therefore, they should be capable of answering specific questions for potential vendors that
small business specialists may not be able to answer.

Additionally, vendors have frequently obtained the annual procurement forecast for the
upcoming fiscal year from OSBP prior to a vendor outreach session. However, as one small
business specialist explained, this information could be very misleading to vendors because it is
a listing of all existing contracts and grants within DOL, rather than a true forecast of upcoming
contracts. In reality, very few of the listed contracts would be open for competitive bidding in
the near future. As a result, vendors have often been told at a vendor outreach session that a
particular contract listed is not actually available for bidding.

Operation and Organization

Vendor outreach sessions are held from 9 a.m. to noon in the Great Hall of the Frances Perkins
Building (DOL Headquarters) in Washington, D.C. on a quarterly basis. Each vendor who
participates in these sessions is allowed 8 fifteen-minute appointments with different DOL
agency small business specialists to introduce their products and services. Vendors are
scheduled for appointments in the order that their registration forms are received. Interest from
companies is often greater than the number of available appointments during a single vendor
outreach session. In these instances, vendors are invited as walk-ins and are accommodated as
space becomes available.

The majority of feedback from vendor outreach session participants has been positive. However,
it is not apparent that OSBP has established operational procedures, thus causing inefficient
delivery of services. For example, during one vendor outreach session we observed that some
small business specialists were idle during a 15-minute session while others were not present. At
other times, small business specialists were overwhelmed as walk-in vendors monopolized a 15-
minute period that was previously appointed to a registered vendor. Appendix 5.1 on page 28
presents a description of the vendor outreach session registration process. Appendix 5.2 on page
28 provides a sample of comments regarding vendor outreach sessions from written surveys
collected by OSBP.

Internal Communication

As a result of OSBP's efforts, all DOL agencies are aware of their annual small business
procurement goals. These goals are communicated to agencies via memo and OSBP keeps
agencies informed of their progress by providing written quarterly performance reports. These
reports summarize an agency’s progress toward meeting each of its small business goals and
adequately reflect an agency’s small business performance. However, small business specialists
contend that OSBP could be more proactive in providing the assistance necessary to find certain
types of small businesses. For example, quarterly performance reports would be more useful if
they were supplemented with constructive criticism and suggested methods for improving any
substandard performance, rather than simply pointing out deficiencies.



OSBP Evaluation                              9                         Findings & Recommendations
                                                                                        Finding B
The GSA Federal Supply Schedule

Both vendors and small business specialists benefit from the use of the GSA Federal Supply
Schedule because it identifies pre-approved small businesses of all types from which goods and
services can be purchased without the need for ordering offices to seek further competition,
synopsize the requirement, or make a separate determination of fair and reasonable pricing. By
using the GSA Federal Supply Schedule, agencies can easily identify small businesses that
satisfy particular procurement needs and purchase from them.

 RECOMMENDATIONS

 We recommend the OSBP Director:

 3. Modify OSBP’s process for notification of agency representatives attending vendor
    outreach sessions by developing procedures to ensure appropriate agency procurement
    specialists attend the sessions and are matched with suitable vendors.

 4. Introduce controls at vendor outreach sessions to ensure participants adhere to
    procedures. To facilitate this, OSBP could benchmark DOL’s vendor outreach sessions
    against similar events at other Federal agencies and identify the best practices to be
    incorporated into DOL’s sessions.

 5. Upgrade the internet-based form for vendor outreach session registration. At a
    minimum, OSBP should:
            •     Supplement the web form with fields allowing vendors to
                  provide details of the products and services they sell along
                  with any other information that OSBP deems beneficial to the
                  procurement process, and
            •     Make the forms of registered vendors accessible to all DOL
                  agencies prior to a vendor outreach session.

 6. Revise the DOL procurement forecast by differentiating upcoming contracts that are
    open for competition from those that are not open for competition.

 7. Develop strategies to improve communication and information exchange between
    OSBP, Small Business Specialists, and vendors. At a minimum, OSBP should
    supplement the quarterly reports to agencies with guidance on how to meet any sub-
    goals that are not being attained.

 8. Encourage GSA representatives to participate in vendor outreach sessions in order to
    disseminate information to participants regarding the GSA Federal Supply Schedule.




OSBP Evaluation                             10                        Findings & Recommendations
                                                                                       Finding B
Recommendation 3

OSBP’s Response: “OSBP has made significant improvements to its VOS process since 2002.
In on-going quarterly meetings, OSBP staff and agency VOS representatives discuss feedback
from the VOS sessions and develop strategies for improving future sessions. OSBP also provides
feedback on VOS sessions at executive staff meetings and via memoranda to agency heads. This
increased focus on the program at the executive level has resulted in an increase in the caliber of
agency representation at the sessions, including more knowledgeable representatives and more
regular participation by each agency.”

OIG’s Conclusion: We concur with the corrective actions already taken by OSBP and consider
this recommendation resolved. This recommendation will be closed pending receipt and review
of documentation showing the significant improvements that OSBP has made to its VOS process
since the end of FY 2002.

Recommendation 4

OSBP’s Response: “OSBP manages and operates an effective VOS. VOS attendees and
agency representatives are advised in advance that vendors with schedules have first priority for
each scheduled slot. Vendors are also notified by a signal when each fifteen minute time slot is
completed; a floor monitor insures that the schedule is strictly adhered to. OSBP is aware of
more controlled techniques utilized in other Department’s VOSs and has considered them.
However, feedback from vendors has confirmed that current OSBP procedures are more
conducive to vendor/agency representative interaction.”

OIG’s Conclusion: As a result of corrective actions already taken by OSBP, we consider this
recommendation to be resolved. This recommendation will be closed pending receipt and review
of documentation regarding 1) the feedback received from vendor outreach session participants
since the end of FY 2002, and 2) OSBP’s assessment of the techniques utilized in other
Department’s vendor outreach sessions.

Recommendation 5

OSBP’s Response: “An upgrade of the VOS registration system has significantly improved the
on-line registration process. Through the on-line process, vendors are encouraged to visit the
other DOL websites to familiarize themselves with the DOL procurement process prior to
selecting schedules. This has resulted in an increase of awareness among vendors of what the
various DOL agencies buy.”

OIG’s Conclusion:

Based upon OSBP’s response and corrective actions that have already been taken by OSBP, we
consider this recommendation resolved. This recommendation will be closed pending receipt
and review of documentation regarding the method(s) for disseminating vendor registration
forms to DOL agencies.


OSBP Evaluation                             11                         Findings & Recommendations
                                                                                        Finding B
Recommendation 6

OSBP’s Response: “DOL’s Procurement Forecast currently differentiates between current
procurement contracts (with expiration dates) and planned procurement contracts (with release
dates). The Forecast also includes the type of procurement methods; e.g., unrestricted, small
business set-aside, 8(a). During the vendor outreach sessions, OSBP staff counsel participating
vendors on how to read and interpret the Forecast.”

OIG’s Conclusion: Based upon OSBP’s response, we consider this recommendation to be
resolved. While we agree that the forecast differentiates between current and planned contracts,
we believe that OSBP should strive to minimize the amount of counseling that staff provides to
vendors during vendor outreach sessions by incorporating such information in the procurement
forecast. We will consider this recommendation closed upon receipt and review of
documentation that 1) addresses the most common issues OSBP counsels participants during
vendor outreach sessions regarding reading and interpreting the Procurement Forecast, and 2)
analyzes the feasibility of including these issues as a written supplement to the Procurement
Forecast.

Recommendation 7

OSBP’s Response: “OSBP continually offers and provides assistance to agency small business
specialists and other agency personnel via memoranda, quarterly meetings, and personal
contacts on methods of meeting their small business goals. In addition to communications via
Vendor Outreach Sessions, OSBP constantly communicates with vendors via telephone calls, e-
mails, correspondence, one-on-one office visits, and participation in procurement conferences
nationwide. Furthermore, OSBP actively exchanges information and shares best practices with
other OSDBUs which results in the development and adoption of strategies to further improve
communication between OSBP, small business specialists, and vendors.”

OIG’s Conclusion: Based upon OSBP’s response, we consider this recommendation to be
resolved. This recommendation will be closed pending receipt and review of 1) written
assistance that OSBP has provided to agencies and small business vendors since the end of FY
2002, and 2) documentation regarding the exchange of information and best practices with other
OSDBUs.

Recommendation 8

OSBP’s Response: “OSBP will invite GSA Supply Schedule program representatives to future
vendor outreach sessions.”

OIG’s Conclusion: We concur with the proposed corrective action taken by OSBP and consider
this recommendation resolved. This recommendation will be closed pending receipt and review
of the correspondence that OSBP uses to invite GSA Supply Schedule program representatives
to future vendor outreach sessions.


OSBP Evaluation                            12                         Findings & Recommendations
                                                                                       Finding B
FINDING C
Internal and External Conditions Hinder Maximization of Small Business Procurement

Internal Conditions

During our evaluation, several organizational issues were identified which diminish OSBP’s
capability to positively influence DOL’s small business procurement process. These conditions
include a lack of enforcement power, competing priorities, and limited resources. As long as OSBP
continues to operate in the presence of these organizational limitations, it will not be able to provide
optimal levels of leadership for DOL’s small business procurement efforts.

Lack of Enforcement Power

OSBP’s performance is encumbered by the fact that it has no real enforcement power and DOL
agencies have little incentive to purchase goods and services from small businesses. Agencies that do
not meet their goals suffer no repercussions for their poor performance and those that do meet their
goals obtain no tangible rewards. Without penalties for non-performance or rewards for high
achievement, OSBP will have fewer opportunities to maximize small business procurement.

Competing Priorities

Based upon our documentation review and analysis, and our interviews with OSBP staff, we found
that OSBP has been given responsibility for implementation and administration of DOL’s Minority
Colleges & Universities Program, which includes historically black colleges and universities,
Hispanic-serving institutions, and tribal colleges and universities. OSBP is responsible for promoting
efforts to increase the involvement of such institutions in DOL programs, while also developing
departmental policies and guidelines, establishing program plans, and monitoring and reporting
results. Thus, the Minority Colleges & Universities Program brings about the necessity for OSBP
employees to undertake additional duties, resulting in inadequate attention given to the Department’s
small business procurement.

Limited Resources

Currently, there are two full-time employees within OSBP who are responsible for DOL small
business procurement-related activities. OSBP claims that this is less than the number needed to
maximize its effectiveness and that when compared to Federal agencies with similar procurement
expenditures, it has a relatively smaller staff size.




OSBP Evaluation                                 13                       Findings and Recommendations
                                                                                            Finding C
External Conditions

Based upon discussions with DOL employees and our document review and analysis, an agency's
small business procurement success is affected by external conditions that are not under the direct
control of OSBP or small business specialists.

           •   Growth beyond small business size limits
           •   HUBZone requirements
           •   Low number of SDVO small businesses
           •   Exclusion of subcontractors in small business statistics
           •   The fact that increases in small business procurement dollars do not
               necessarily result in increases in the small business procurement percentage

Growth

In order to be considered a small business, it is required that a firm fall below maximum size limits
(see Appendix 1 on page 14 for small business size standards). Any firm larger than its limit cannot
be considered a small business for purposes of Federal procurement. Therefore, a firm may begin a
contract as a small business, but outgrow its small business status after becoming too successful.
When this happens, firms can no longer be considered small businesses for the purpose of goal
achievement.

HUBZone Requirements

In order to be considered a HUBZone small business, a firm must locate its principal office within a
HUBZone area and at least 35 percent of that firm's employees must live within the same HUBZone
boundaries. However, some HUBZone boundaries change every 10 years, some change annually,
and others change unpredictably. Thus, boundaries can expand and contract within and around a
HUBZone as the economic status and population of these areas change. As a result, small businesses
can lose their HUBZone status due to an unfavorable boundary shift.

In FY 2002, DOL made 1.6 percent of its procurement purchases from HUBZone small businesses.
This was below the 3 percent goal.

Low Number of SDVO Small Businesses

The 3 percent goal for SDVO firms was called "completely ludicrous" by one DOL small business
specialist because of the extremely low number of approved businesses in this category. Because of
the scarcity of SDVO firms, the 3 percent SDVO goal may never be achieved. In FY 2002, DOL
made effectively 0 percent of is purchases from SDVO small businesses.




OSBP Evaluation                                14                      Findings and Recommendations
                                                                                          Finding C
Exclusion of Subcontracting Dollars in Small Business Statistics

Job Corps centers are normally operated by businesses under contract with ETA. Each of these
“primary contractors” is responsible for carrying out the day-to-day operations of the center.
Typically, a Job Corps center’s primary contract is worth $8-$10 million. While small businesses can
compete for these contracts, the majority of contracts are awarded to larger companies. A particular
business may be awarded the primary contract for a single center or for multiple centers.

Frequently, prime contractors must hire subcontractors to perform various functions. For example, at
Job Corps centers, construction projects usually utilize the services of local, small business
contractors. However, these subcontracting dollars do not count towards fulfillment of DOL’s small
business prime contracting goals. In FY 2002, ETA’s prime contractors awarded $337.1 million in
subcontracts to small businesses. This amount was 21 percent of DOL’s total procurement spending
in FY 2002.

Dollar Growth Does Not Necessarily Result in Percentage Growth

Under certain conditions, it is possible for an agency to increase procurement dollars to small
businesses in a given year without significantly increasing its overall small business procurement
percentage. One agency representative expressed displeasure that their agency’s success is
determined by achievement of this percentage, while no attention is given to increases in actual dollar
values. Sometimes an agency can increase the value of its small business procurements by millions
of dollars and still not significantly increase its percentage of overall small business procurements.
Increases in dollar values without increases in percentages could suggest periods of strong growth,
whereas growth is not a requirement for a simple percentage increase.


 RECOMMENDATIONS

 We recommend the OSBP Director:

 9. Analyze the processes and techniques utilized by other Federal agencies to maximize
    small business procurement. Determine if these processes and techniques could be
    utilized by OSBP.

 10. Develop strategies to compensate for the effects of external conditions upon the
     maximization of small business procurement. At a minimum, OSBP should develop plans
     or strategies to increase procurement purchases from HUBZone and SDVO small
     businesses.




OSBP Evaluation                                15                      Findings and Recommendations
                                                                                          Finding C
Recommendation 9

OSBP’s Response: “OSBP continually reviews processes and techniques of other OSDBUs and
other Federal agencies to maximize small business procurement to identify those that may be of
benefit in DOL. OSBP also contributes best practice processes and techniques, such as its practice
of communicating to contracting officers the performance of their subcontractors against
subcontracting plans, which has helped DOL achieve some of the highest rates of small business
subcontracting in the Federal government. OSBP is aware of the infrastructure of other agencies’
OSDBUs and associated procurement staff. OSBP strives to maximize both small business
procurement and the effective utilization of its limited resources.”

OIG’s Conclusion: Based upon OSBP’s response, we consider this recommendation to be resolved.
This recommendation will be closed pending receipt and review of any documentation regarding 1)
the exchange of information and best practices with other OSDBUs, 2) processes or techniques from
other OSDBUs that have been incorporated or deferred by OSBP, and 3) the infrastructure of other
OSDBUs and their associated procurement staff.

Recommendation 10

OSBP’s Response: “By law and regulation, the function of the OSDBU is to recommend strategies
to improve small business procurement. OSBP is constantly at work developing strategies to
maximize small business utilization. OSBP was instrumental in contributing to small business
provisions in the pending revised Department of Labor Acquisition Regulation (DOLAR). OSBP has
recently redrafted its DLMS Chapter 2-1000, Small Business Utilization Program, to increase its
effectiveness in maximizing small business utilization. OSBP has initiated discussions with DOL’s
Procurement Executive, regarding the possibility of establishing temporary employment of special
procurement mechanisms to favor HUBZone and SDVOSB vendors in DOL procurements. OSBP is
working with ETA’s procurement office to specifically screen all construction projects at Job Corps
Centers for possible HUBZone set-asides, since half of the centers are located in HUBZones. OSBP
is in the process of publicizing to DOL agencies, accessible HUBZone and SDVOSB firms capable of
fulfilling their requirements. OSBP has conducted special outreach and VOS sessions for HUBZone
and SDVOSB firms and will continue to do so.”

OIG’s Conclusion: As a result of actions that are planned or have already begun to be undertaken
by OSBP, we consider this recommendation to be resolved. This recommendation will be closed
pending receipt and review of documentation regarding 1) the possibility of establishing temporary
utilization of special procurement mechanisms to favor HUBZone and SDVO small business
vendors, 2) the process of publicizing to DOL agencies accessible HUBZone and SDVO small
businesses capable of fulfilling their requirements, 3) the special outreach for HUBZone and SDVO
small businesses, and 4) work with ETA to specifically screen construction projects at Job Corps
centers.




OSBP Evaluation                              16                      Findings and Recommendations
                                                                                        Finding C
                           Appendix 1

                  Small Business Size Standards




OSBP Evaluation                 17                Appendix 1
Appendix 1 – General Range of Small Business Size Standards by Industry


Construction       General building and heavy construction contractors have a size standard of
                   $28.5 million in average annual receipts. Special trade construction
                   contractors have a size standard of $12 million.

Manufacturing      For approximately 75 percent of the manufacturing industries, the size standard
                   is 500 employees. A small number have a 1,500-employee size standard and
                   the balance have a size standard of either 750 or 1,000 employees.

Mining             All mining industries, except mining services, have a size standard of 500
                   employees.

Retail Trade       Most retail trade industries have a size standard of $6 million in average annual
                   receipts. A few, such as grocery stores, department stores, motor vehicle
                   dealers and electrical appliance dealers, have higher size standards. None are
                   above $24.5 million.

Services           For the service industries, the most common size standard is $6 million in
                   average annual receipts. Computer programming, data processing and systems
                   design have a size standard of $21 million. Engineering and architectural
                   services have different size standards, as do a few other service industries. The
                   highest annual receipts size standard in any service industry is $29 million.
                   Research and development and environmental remediation services are the
                   only service industries with size standards stated in number of employees.

Wholesale Trade    For all wholesale trade industries, a size standard of 100 employees is
                   applicable for loans and other financial programs. When acting as a dealer on
                   Federal contracts set aside for small business or issued under the 8(a) program,
                   the size standard is 500 employees and the firm must deliver the product of a
                   small domestic manufacturer, as set forth in Small Business Administration’s
                   non-manufacturer rule, unless waived by the Small Business Administration
                   for a particular class of product. However, for those procurements made under
                   the Simplified Acquisition Procedures of the FAR and where the purchase does
                   not exceed $25,000, the non-manufacturer may deliver the goods of any
                   domestic manufacturer.

Other Industries   Other industry divisions include: agriculture; transportation, communications,
                   electric, gas, and sanitary services; and finance, insurance and real estate.
                   Because of wide variation in the industry structure of the industries in these
                   divisions, there is no common pattern of size standards. For specific size
                   standards refer to the size regulations in 13 CFR § 121.201.




OSBP Evaluation                                18                                      Appendix 1
                         Appendix 2

                  Eligibility Requirements of
                  Small Business Programs




OSBP Evaluation                 19              Appendix 2
Appendix 2.1

8(a) Small Business Program

The 8(a) Program was created in 1942 under Public Law 603. SBA redesigned it in 1969 to
provide Federal contract support to small firms owned by socially or economically
disadvantaged individuals. There is not a designated procurement goal for this program.
However, all agencies are required to set their own 8(a) goals as stipulated in Executive Order
13170. 8(a) eligibility requirements assert that a firm:

           •   Must be a small business as defined by SBA,
           •   Must be unconditionally owned and controlled by one or more socially
               and economically disadvantaged individuals who are of good character
               and citizens of the United States, and
           •   Must demonstrate potential for success.

Socially Disadvantaged Individuals

Socially disadvantaged individuals are those who have been subjected to racial or ethnic
prejudice or cultural bias because of their identity as members of a group. Social disadvantage
must stem from circumstances beyond their control. In the absence of evidence to the contrary,
individuals who are members of the following designated groups are presumed to be socially
disadvantaged:

           •   Black Americans,
           •   Hispanic Americans,
           •   Native Americans (American Indians, Eskimos, Aleuts, and Native
               Hawaiians),
           •   Asian Pacific Americans (persons with origins from Japan, China, the
               Philippines, Vietnam, Korea, Samoa, Guam, U.S. Trust Territory of
               the Pacific Islands [Republic of Palau], Commonwealth of the
               Northern Mariana Islands, Laos, Cambodia [Kampuchea], Taiwan;
               Burma, Thailand, Malaysia, Indonesia, Singapore, Brunei, Republic of
               the Marshall Islands, Federated States of Micronesia, Macao, Hong
               Kong, Fiji, Tonga, Kiribati, Tuvalu, or Nauru,
           •   Subcontinent Asian Americans (persons with origins from India,
               Pakistan, Bangladesh, Sri Lanka, Bhutan, the Maldives Islands or
               Nepal), and
           •   Members of other groups designated by the SBA.

Economically Disadvantaged Individuals

Economically disadvantaged individuals are socially disadvantaged individuals whose ability to
compete in the free enterprise system has been impaired due to diminished capital and credit
opportunities.

The individual's net worth, after excluding the individual's equity in the firm and the equity in the
primary residence, may not exceed $250,000. SBA will also consider the individual's average

OSBP Evaluation                                     20                                   Appendix 2
2-year income, fair market value of all assets, access to credit and capital, and the financial
condition of the applicant firm.

Appendix 2.2

Small Disadvantaged Business Program

The SBA implemented the Small Disadvantaged Business (SDB) Program in August 1998. Its
purpose is to provide equity in federal contracting with small businesses owned and controlled
by individuals determined to be socially and economically disadvantaged. The SDB Program is
the second business assistance program for small disadvantaged businesses that is administered
by the SBA. While it is similar to the 8(a) Program that offers a broad scope of assistance to
socially and economically disadvantaged firms, the SDB certification pertains solely to benefits
in Federal procurement. 8(a) firms automatically qualify for SDB certification. The SBA has
established a 5 percent contracting goal for these types of businesses.

Qualifications for the program are similar to those for the 8(a) Business Development Program.
A small business must be at least 51 percent owned and controlled by a socially and
economically disadvantaged individual or individuals. African Americans, Hispanic Americans,
Asian Pacific Americans, Subcontinent Asian Americans, and Native Americans are presumed to
quality. Other individuals can qualify if they show by a "preponderance of the evidence" that
they are disadvantaged. All individuals must have a net worth of less than $750,000, excluding
the equity of the business and primary residence. Successful applicants must also meet
applicable size standards for small businesses in their industry.

Appendix 2.3

Women-Owned Small Business Program

The Federal Acquisition Streamlining Act (FASA) of 1994 (Public Law 103-355) established a 5
percent women-owned small business procurement goal. Thus, the value of procurements from
businesses owned and controlled by women is to equal at least 5 percent of the total for all
Federal agencies. There are no set-aside procurement programs for awarding contracts to
women-owned small businesses.

The Federal Acquisition Regulations (FAR) define a "women-owned small business concern" in
Part 19.001 Definitions, as follows:

           Women-owned small business concern means a small business concern –
           (a) which is at least 51 percent owned by one or more women; or, in the
           case of any publicly owned business, at least 51 percent of the stock of
           which is owned by one or more women; and (b) whose management and
           daily business operations are controlled by one or more women.




OSBP Evaluation                                     21                                    Appendix 2
Appendix 2.4

HUBZone Small Business Program

The Historically Underutilized Small Business Zone (HUBZone) Empowerment Contracting
Program was created to provide Federal contracting opportunities for qualified small businesses
located in distressed communities. Created by Title VI of the Small Business Reauthorization
Act of 1997 (Public Law 105-135), SBA began accepting HUBZone applications in March 1999
and all Federal agencies became subject to the requirements of the HUBZone program on
October 1, 2000. The procurement goal was set to increase incrementally from 2 percent in FY
2001 to its maximum of 3 percent in FY 2003. HUBZone Target Areas include:

           •   Qualified census tracts as designated by the Department of Housing
               and Urban Development,
           •   Qualified non-metropolitan counties in which the median household
               income is less than 80 percent of the statewide non-metropolitan
               median household income as reported by the Bureau of the Census, or
               qualified non-metropolitan counties in which the unemployment rate is
               140 percent or greater of the state unemployment rate as reported by
               the Bureau of Labor Statistics, and
           •   Lands within the external boundaries of an Indian reservation as
               defined by the Bureau of Indian Affairs.

       Eligibility Requirements:

           •   The firm must be a small business by SBA size standards,
           •   Its principal office must be located within a HUBZone, which includes
               lands on federally recognized Indian reservations,
           •   It must be owned and controlled by one or more U.S. citizens
               (approved ownership can also be a Community Development
               Corporation or Indian Tribe), and
           •   At least 35 percent of its employees must reside in a HUBZone.

Appendix 2.5

Service-Disabled Veteran-Owned (SDVO) Small Business Program

The Veterans Entrepreneurship and Small Business Development Act (VESBA) of 1999 (Public
Law 106-50) expanded the eligibility for certain small business assistance programs to include
veterans. It also amended the Small Business Act (15 U.S.C. 631 et seq.) to include veterans and
veterans with service-related disabilities in its programs. There are no set-aside programs for
veterans. However, VESBA requires that Federal agencies establish and achieve a participation
goal of 3 percent of the total value of all prime contract and subcontract awards for each fiscal
year for small businesses owned and controlled by veterans with service-related disabilities. The
3 percent procurement goal applies only to service-disabled veteran-owned businesses, not
veteran-owned small businesses. To be considered a SDVO Small Business, it must be:



OSBP Evaluation                                   22                                   Appendix 2
          •   At least 51 percent owned by one or more service-disabled veterans. In
              the case of any publicly owned business, at least 51 percent of the
              stock must be owned by one or more service-disabled veterans, and
          •   Managed and controlled by one or more service-disabled veterans or,
              in the case of a veteran with permanent and severe disability, the
              spouse or permanent care-giver of such veteran.




OSBP Evaluation                                 23                                     Appendix 2
                    Appendix 3

                  OSBP’s Authority




OSBP Evaluation       24             Appendix 3
Appendix 3

The Office of Small Business Program’s Authority

          •   Secretary Elaine Chao’s Order 4-2002, which stipulates that OSBP
              serves under the auspices of the Office of the Deputy Secretary and
              performs under the general direction of the Deputy Secretary, and on
              that basis, acts independently exercising initiative and judgment in
              assuming responsibility and taking action.
          •   The Small Business Act (Public Laws 95-507 and 100-656), which
              authorizes the Small and Disadvantaged Business Utilization program
              and prescribes percentages to goals.
          •   The Small Business Regulatory Enforcement Fairness Act of 1996
              (Public Law 104-121), which requires federal agencies to provide
              small businesses with compliance guides and assistance regarding
              regulations and directives.
          •   Federal Acquisition Streamlining Act (Public Law 103-355).
          •   Small Business Regulatory Enforcement Fairness Act (Public Law
              104-121).
          •   Executive Order 13256, which directs the Historically Black Colleges
              and Universities program.
          •   Executive Order 13230, which directs the program for Educational
              Excellence for Hispanic Americans.
          •   Executive Order 13216, which directs the Asian American and Pacific
              Islanders Program.
          •   Executive Order 13270, which directs the Tribal Colleges and
              University program and the Federal Advisory Committee Act.




OSBP Evaluation                          25                                          Appendix 3
                        Appendix 4

                  DOL Performance Tables
                     FYs 1999—2002




OSBP Evaluation          26                Appendix 4
       2002                                              Achievement (%)
                              SB     SB      SDB     SDB   W-O   W-O   HUB      HUB     8(a)    8(a)
      Agency         $       Goal   Actual   Goal   Actual Goal Actual Goal    Actual   Goal   Actual
     ETA          1,301.6M   21.0     18.7    4.0      3.4  5.0    4.3   2.5      2.0    3.0      6.0
     OASAM           80.5M   55.0     58.7    4.5     10.8 10.0   13.0   2.5      0.4   23.5      8.5
     BLS             70.1M   24.5     17.9   15.0      6.7  5.0    2.1   2.5      0.0    4.8      1.9
     ESA             66.6M   40.0     38.2   10.0     23.7  5.0    2.2   2.5      0.0    3.0      0.4
     OSHA            44.3M   60.0     65.3   10.0      7.7  5.0   10.6   2.5      0.0    7.0     11.5
     PWBA            21.6M   25.0     46.7    7.0     12.5 12.0   15.0   2.5      0.0    4.0     15.0
     MSHA            21.3M   66.3     61.6   20.9     15.3  5.0    6.6   2.5      0.0    7.6     15.4
     ILAB            18.9M   55.0     78.5    2.5      0.2  5.0    1.5   2.5      0.0    2.5      0.0
     OCFO            15.4M   15.0     15.2    2.5      0.1  5.0    0.1   2.5      0.0    2.5      0.0
     OASP             7.8M   23.0     68.5    5.0     27.6  5.0   17.6   2.5      0.0    5.0      5.8
     OIG              6.2M   24.0     73.2    4.9      6.5  5.0    0.0   2.5      0.0    3.0     -0.4
     VETS             6.2M   34.4     58.2    1.8     41.9 17.6   14.0   2.5      0.0   32.6     12.0
     ODEP             6.1M   72.0     30.5    0.3      3.0  2.0    3.7   2.5      0.0   11.8      5.9
     SOL              5.2M   52.0     70.3    0.5      0.4  5.0    1.5   2.5      0.0   37.5     60.1
     OPA              1.9M   80.0     71.7    0.5      2.9  5.0   12.8   2.5      0.0    8.0      1.3
     WB               1.5M   40.0     47.3    5.0      2.2  5.0    4.0   2.5      0.0    0.0      0.0
     OALJ             1.4M   85.0     83.6   35.0     35.0 32.0   12.9   2.5      0.0    0.0      0.0




       Note 1:      The SDVO goal and performance is not shown. Goals in this category
                    were required for the first time in FY 2001 and they were not achieved
                    by any DOL agency in FYs 2001 or 2002. In FY 2002, DOL made
                    effectively 0 percent of is purchases from SDVO small businesses.

       Note 2:      ETA’s spending in FY 2002 represented approximately 79% of DOL’s
                    total procurement. Ninety-eight percent of these dollars were for
                    ETA’s Job Corps Program. The Job Corps Program presents unique
                    challenges for ETA because it provides vocational, academic, and life
                    skills training to approximately 70,000 youth at 118 centers throughout
                    the United States and Puerto Rico. It is America’s largest residential
                    training program for economically disadvantaged youth between the
                    ages of 16 and 24 and includes supervised dormitory residences,
                    meals, medical care, and counseling.




OSBP Evaluation                                 27                                             Appendix 4
       2001                                               Achievement (%)
                              SB     SB      SDB      SDB   W-O   W-O   HUB      HUB     8(a)    8(a)
      Agency         $       Goal   Actual   Goal    Actual Goal Actual Goal    Actual   Goal   Actual
      ETA         1,057.7M   22.0     22.7    2.5       4.8  5.0    5.0   2.0      0.4    4.2      5.5
      ESA            77.8M   40.0     34.3   22.0      23.2  5.0    0.7   2.0      0.0    3.2      0.3
      OSHA           44.2M   59.0     63.3    8.5      14.4  5.0    5.9   2.0      0.0    8.0      7.1
      OASAM          43.2M   55.0     49.3    4.5       7.9 10.0   12.4   2.0      0.0   23.5     13.6
      BLS            42.5M   54.0     29.8   33.6      13.9  5.0    3.4   2.0      0.0    2.5      4.7
      PWBA           34.0M   25.0     36.2    7.0      14.3 12.0   19.1   2.0      0.0    5.0      8.7
      MSHA           27.3M   60.0     64.7    6.5      18.8  5.0    2.9   2.0      0.1    5.4      1.5
      ILAB           18.3M   90.0     54.0    1.0       2.4  5.4    0.7   2.0      0.0    3.2      0.0
      OCFO           13.6M   15.0     14.8    2.5       2.0  5.0    0.0   2.0      0.0    2.5      0.0
      OIG             9.6M   70.0     70.7    9.5       4.1  5.0    3.3   2.0      0.0    1.0      0.5
      OASP            7.0M   54.0     56.5   11.5      26.6  5.0   13.7   2.0      0.0    8.2      2.1
      SOL             5.4M   52.0     53.9    0.5       1.6  5.0    1.7   2.0      0.0   37.5     37.8
      VETS            4.0M   55.0     66.0    1.0      24.1 18.0   40.5   2.0      0.0   49.0     30.9
      ODEP            3.5M   25.0     34.0    2.5       0.0  5.0    0.1   2.0      0.0    2.5      3.4
      WB              1.6M   40.0     30.7    5.0       2.9  7.0    3.9   2.0      0.0    0.0      0.0
      OPA             1.5M   80.0     86.0    0.5       2.9  5.0    4.6   2.0      0.0    8.0      0.0
      OALJ            1.0M   85.0     76.6   35.0      38.8 32.0   12.2   2.0      0.0    0.0      0.0




       2000                                               Achievement (%)
                              SB     SB      SDB      SDB   W-O   W-O   HUB      HUB     8(a)    8(a)
      Agency         $       Goal   Actual   Goal    Actual Goal Actual Goal    Actual   Goal   Actual
      ETA         1,046.1M   20.0     21.6    2.5       2.5  5.0    3.9   *       *       2.5      4.2
      BLS            54.3M   45.0     25.5   10.0      33.9  5.0    2.2   *       *      25.0      2.3
      ESA            45.5M   34.0     38.8    9.0      21.6  5.0    1.1   *       *      14.0      3.2
      OASAM          44.6M   57.0     55.7    5.0       4.7  8.0   10.0   *       *      27.5     23.5
      OSHA           33.9M   82.0     59.8   13.0       8.9  5.0    1.9   *       *      21.0      7.8
      PWBA           25.5M   25.0     31.3    5.0      13.1 15.0   17.4   *       *      20.0      6.6
      MSHA           13.2M   65.0     60.0      0       2.5  6.0    4.6   *       *      15.0      5.3
      ILAB           11.5M   75.0     90.8    5.0       1.1  5.0    5.4   *       *       9.9      3.2
      OIG             7.6M   60.0     80.4    5.0       5.5  5.0    5.0   *       *       1.0      0.5
      OASP            7.0M   75.0     40.9    0.0      11.8 15.0   11.8   *       *      35.0      8.2
      SOL             6.4M   72.0     54.1    2.0       0.4  5.0    0.1   *       *      49.0     37.5
      VETS            5.3M   40.0     57.6    2.5       0.2  5.0   19.3   *       *      40.0     48.8
      OPA             1.8M   75.0     84.4    2.6       0.4  5.4    7.8   *       *       5.0      7.7
      OALJ            0.9M   35.0     85.1   15.0      34.9 20.0   33.1   *       *       0.0      0.0
      WB              0.5M   80.8     40.6    2.6       1.8 55.0    7.7   *       *       9.3      0.0




OSBP Evaluation                                     28                                           Appendix 4
          1999                                              Achievement (%)
                                SB     SB      SDB      SDB   W-O   W-O   HUB     HUB     8(a)    8(a)
         Agency        $       Goal   Actual   Goal    Actual Goal Actual Goal   Actual   Goal   Actual
        ETA         913.8M     23.0     13.2    5.2       1.2  5.0    2.7   *      *       1.3      2.0
        BLS          58.2M     39.4     44.7    2.0       6.0  5.0    1.2   *      *      23.0     20.5
        ESA          44.1M     23.0     31.8    1.4       5.6  5.0    2.3   *      *      10.0      9.5
        OASAM        30.4M     57.0     53.2    5.0       2.8  8.7    8.6   *      *      27.5     22.3
        OSHA         21.0M     82.0     50.7    8.0      11.5  5.0    0.3   *      *      21.0      8.4
        PWBA         17.5M     23.0     23.3    3.2       3.2 11.9   14.5   *      *      17.6     13.0
        OIG           9.5M     96.1     56.7   31.0       2.5 13.0    1.6   *      *       0.0      0.9
        MSHA          9.4M     38.8     70.8    1.0       3.7 10.3    9.6   *      *       8.6     26.2
        VETS          4.5M     30.3     45.5    1.0       0.1  5.0   12.8   *      *      30.3     35.1
        SOL           4.0M     72.0     62.9    7.0       0.1  5.0    0.9   *      *      49.0     52.1
        OASP          3.7M     75.0     84.7    0.0      40.8 15.0   15.7   *      *      30.0     24.8
        ILAB          2.8M     75.1     88.7   14.0       0.0  5.0    9.4   *      *      23.0      6.7
        OALJ          1.1M       NA     56.9    NA       14.6   NA   25.3   *      *       NA       0.0
        OPA           0.8M     50.6     73.9    4.5       1.9  5.6   16.8   *      *       5.6      0.0
        WB            0.2M     80.8     45.0    1.9       8.0 55.0   25.6   *      *       9.9      0.0




        * = No Goal Required
       M = Million




OSBP Evaluation                                   29                                             Appendix 4
                          Appendix 5

                  Vendor Outreach Sessions --
                   Supplemental Information




OSBP Evaluation             30                  Appendix 6
Appendix 5.1

Vendor Outreach Session Registration Process

          •    A vendor sends its registration form to OSBP and the company's name
               is put on a list along with the date the registration form was received.
          •    Approximately one month before the vendor outreach session, a
               confirmation e-mail is sent to all vendors on the list.
          •    Based on the confirmations received, the vendor outreach schedule is
               created. There are approximately 24 tables per session and 11 time
               slots for each table. Vendors are scheduled in the order in which their
               original registrations were received and assigned to the agencies in
               which they indicated they were interested.
          •    Vendors not able to be accommodated are notified via e-mail and
               offered an invitation to attend as a walk-in. It is explained that walk-
               ins do very well because some of the scheduled vendors do not attend,
               arrive late, leave early, or do not utilize their entire 15-minute
               allotment. Vendors who desire to attend the upcoming vendor
               outreach session as walk-ins are added to the list. Vendors who do not
               desire to walk-in are added to the list for the following vendor
               outreach session.
          •    On the morning of the session, DOL agency representatives are
               presented with a list of their scheduled appointments along with a list
               of walk-in vendors. Occasionally, an advanced copy of the list and
               schedule matrix are sent to the agency reps as an attachment to the
               reminder e-mail that is sent prior to each session.

Appendix 5.2

Vendor Outreach Session Quality Survey Responses

          •    Make sure procurement forecast is current.
          •    Better administration: alert participants about the start and finish of
               the 15-minute intervals, strictly adhere to these time limits, and
               improve the visibility and layout of agency tables.
          •    Have program officers or more knowledgeable agency representatives
               participate.
          •    Provide lists of those in attendance.
          •    Eliminate “no-shows” – ensure agency representatives who are
               supposed to attend are actually present.
          •    Have DOL representatives provide more information about types of
               services actually needed and requirements vendors must meet.
          •    Make sure vendors understand before sessions that some agencies will
               have no current procurement opportunities available and that these
               agency representatives can only give general information.




OSBP Evaluation                             31                                            Appendix 6
                     Appendix 6

                  Comparison Tables




OSBP Evaluation        32             Appendix 6
Appendix 6 – Goal Attainment

                         Dept of   Dept of the     Dept of     Dept of         Environmental
            2002
                         Labor      Interior        State     Commerce       Protection Agency

          Total
                         $1.64B      $2.40B        $1.61B         $1.60B          $1.34B
       Procurement

        Overall Small       Y          N              Y             Y               Y
          Business
           Small            Y          N              Y             Y               N
       Disadvantaged
            8(a)            Y          Y              Y             Y               Y
      Women-Owned           N          Y              N             Y               N
          HUBZone           N          Y              Y             N               N
      Service Disabled      N          #              #             #               #
       Veteran-Owned



                         Dept of   Dept of the     Dept of     Dept of         Environmental
            2001
                         Labor      Interior        State     Commerce       Protection Agency

          Total
                         $1.40B      $2.15B        $1.50B         $1.19B          $1.10B
       Procurement

        Overall Small       Y          Y              Y             Y               Y
          Business
           Small            Y          Y              Y             Y               N
       Disadvantaged
            8(a)            Y          N              N             N               Y
      Women-Owned           Y          Y              N             Y               N
          HUBZone           N          Y              N             N               N
      Service Disabled      N          #              #             #               #
       Veteran-Owned




                         Dept of    Dept of                       Dept of the   Environmental
           2000                                   Dept of State
                         Labor     Commerce                        Interior   Protection Agency

          Total
                         $1.30B     $1.90B           $1.54B         $1.44B         $0.99B
       Procurement

      Overall Small        Y          N                Y                Y            Y
         Business
          Small            Y          Y                Y                Y            N
      Disadvantaged
           8(a)            Y          N                Y                N            Y
      Women-Owned          N          Y                N                N            N
          HUBZone          *          *                   *             *            *
      Service Disabled     *          *                   *             *            *
       Veteran-Owned


     Y = Achieved Goal
     N = Did Not Achieve Goal
     * = No Goal Required
     # = No Data


OSBP Evaluation                              33                                             Appendix 6
                          Dept of     Environmental     Dept of the    Dept of   Dept of
            1999
                          Labor     Protection Agency    Interior     Commerce    State

           Total
                          $1.14B         $1.29B           $1.25B       $1.20B    $0.903B
        Procurement

        Overall Small           N          Y                N            Y         Y
          Business
           Small                N          Y                Y            Y         N
       Disadvantaged
            8(a)                Y          N                Y            N         Y
       Women-Owned              N          N                N            Y         Y
          HUBZone               *          *                *            *          *
      Service Disabled          *          *                *            *          *
       Veteran-Owned



     Y = Achieved Goal
     N = Did Not Achieve Goal
     * = No Goal Required
     # = No Data




OSBP Evaluation                           34                                        Appendix 6
                  Glossary




OSBP Evaluation    35        Glossary
Federal Acquisition       The FAR is the primary regulation for use by all Federal executive
Regulations (FAR)         agencies in their acquisition of supplies and services with
                          appropriated funds. The FAR precludes agency acquisition
                          regulations that unnecessarily repeat, paraphrase, or otherwise
                          restate the FAR, limits agency acquisition regulations to those
                          necessary to implement FAR policies and procedures within an
                          agency, and provides for coordination, simplicity, and uniformity
                          in the Federal acquisition process. It also provides for agency and
                          public participation in developing the FAR and agency acquisition
                          regulation.

Federal Acquisition       The Federal Acquisition Streamlining Act of 1994 amended
Streamlining Act          several acts administered by the Department of Labor: 1) the
                          Contract Work Hours and Safety Standards Act to limit its
                          applicability to contracts in an amount of $100,000 or greater; 2)
                          the Davis-Bacon Act to provide waivers from the Act's prevailing
                          wage requirements under selected laws for volunteers performing
                          services to a State or local government or agency and for
                          volunteers performing services to a public or private nonprofit
                          recipient of Federal assistance; and 3) the Walsh-Healey Public
                          Contracts Act to eliminate the requirements that contractors on
                          covered contracts be either manufacturers or regular dealers in the
                          items to be supplied under the contract but retains the Secretary of
                          Labor's authority to define the terms “regular dealer” and
                          “manufacturer.”

North American Industry   A series of number codes that attempts to classify all business
Classification System     establishments by the types of products or services they make
(NAICS)                   available and organizes the categories on a production/process
                          oriented basis. Establishments engaged in the same activity,
                          whatever their size or type of ownership, are assigned the same
                          NAICS code. These definitions are important for standardization.

Small Business Act        This policy declares that the SBA, acting in cooperation with the
                          Department of Commerce and other relevant State and Federal
                          agencies, should aid and assist small businesses, to increase their
                          ability to compete in international markets by 1) enhancing their
                          ability to export; 2) facilitating technology transfers; 3) enhancing
                          their ability to compete effectively and efficiently against imports;
                          4) increasing the access of small businesses to long-term capital for
                          the purchase of new plant and equipment used in the production of
                          goods and services involved in international trade;
                          5) disseminating information concerning State, Federal, and
                          private programs and initiatives to enhance the ability of small
                          businesses to compete in international markets; and 6) ensuring
                          that the interests of small businesses are adequately represented in
                          bilateral and multilateral trade negotiations.

 OSBP Evaluation                         36                                          Glossary
Small Business Set-Aside   The Small Business Set-Aside Program helps assure that small
                           businesses are awarded a fair proportion of government contracts
                           by reserving, or “setting aside,” certain government purchases
                           exclusively for participation by small business concerns.

Sole Source Contract       A sole source contract is awarded to a single contractor, bypassing
                           the competitive bidding process. To justify a sole source
                           acquisition, an agency needs to develop a rationale why
                           competitive bidding would not be necessary, such as: 1) the agency
                           already uses the vendor's equipment and its continued purchase is
                           essential for compatibility, 2) the vendor's equipment has unique
                           features that are essential to the department's operations, and 3) a
                           pressing emergency exists.




 OSBP Evaluation                          37                                         Glossary
                  Agency Response




OSBP Evaluation         38          Agency Response
